I
IN THE
SUPREME COURT OF THE UNITED STATE
OCTOBER TERM, 2021

Supreme Court, U.S.
FILED

AUG 0 9 202i
OFFICE OF THE CLERK

WILLIE POWELL,
Petitioner,
vs.
THE UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner asks leave to file the attached Petition for Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis. Leave to proceed was granted
in the Court of Appeals for the Eleventh Circuit, which appointed the undersigned
counsel in the attached letter.
Dated August 9, 2021.
Respectfully submitted,

t

ad1414-

BARBARA SANDERS
Counsel for Petitioner
Fla. Bar # 442178
215 West 12th St.
St. George Island, FL 32328
(850) 653-6782

USCA11 a

20-12353 Date Filed: 06/25/2021

age: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1.uscourts.gov

David J. Smith
Clerk of Court

June 25, 2020
Barbara Sanders
Sanders & Duncan, PA
PO BOX 157
APALACHICOLA, FL 32329-0157
Appeal Number: 20-12353-F
Case Style: USA v. Willie Powell
District Court Docket No: 4:19-cr-00013-MW-MAF-1
Party To Be Represented: Willie Powell
Dear Counsel:
We are pleased to advise that you have been appointed to represent on appeal the indigent
litigant named above. This work is comparable to work performed pro bono publico. The fee
you will receive likely will be less than your customary one due to limitations on the hourly rate
of compensation contained in the Criminal Justice Act (18 U.S.C. ยง 3006A), and consideration
of the factors contained in Addendum Four ยง (g)(1) of the Eleventh Circuit Rules.
Supporting documentation and a link to the CJA eVoucher application are available on the
internet at http://www.call.uscourts.gov/attorney-info/criminal-justice-act. For questions
concerning CJA eVoucher please contact our CJA Team by email at
cja_evoucher@call.uscourts.gov or phone 404-335-6167. For all other questions, please call
the "Reply To" number shown below.
Every motion, petition, brief, answer, response and reply filed must contain a Certificate of
Interested Persons and Corporate Disclosure Statement (CIP). Appellants/Petitioners must file a
CIP within 14 days after the date the case or appeal is docketed in this court;
Appellees/Respondents/Intervenors/Other Parties must file a CIP within 28 days after the case
or appeal is docketed in this court, regardless of whether appellants/petitioners have filed a CIP.
See FRAP 26.1 and 11th Cir. R. 26.1-1.
On the same day a party or amicus curiae first files its paper or e-filed CIP, that filer must also
complete the court's web-based CIP at the Web-Based CIP link on the court's website. Pro se

USCA11 a 20-12353 Date Filed: 06/25/202'age: 2 of 2

filers (except attorneys appearing in particular cases as pro se parties) are not required or
authorized to complete the web-based CIP.
Within fourteen (14) days from this date, you must file a Transcript Information Form, as
required by Fed.R.App.P. 10(b)(1); a Transcript Information Form is available from the district
court clerk. Appellant is required to file and serve copies of the form in accordance with the
instructions included on the form. See 11th Cir. R. 31-1(b).
Your claim for compensation under the Act should be submitted within 60 days after issuance
of mandate or filing of a certiorari petition. We request that you enclose with your completed
CJA Voucher one additional copy of each brief, petition for rehearing, and certiorari petition
which you have filed. Please ensure that your voucher includes a detailed description of the
work you performed. Thank you for accepting this appointment under the Criminal Justice Act.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Dionne S. Young, F
Phone #: (404) 335-6224

